Legal Printers,

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

October 3, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Darin Jones v. United States Department of Justice and Federal

Bureau of Investigation
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari referenced above contains 7,604 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
As a member of the Supreme Court Bar, I declare under penalty of perjury that
the foregoing is true and correct.
inoerely.

,ux/b. Chotins Esq.
Principal

